2311 Douglas Street
Omaha, Nebraska 68102-1214

__OCKLE
N...rLegal Briefs

Est. , 923

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

E-Mail Address:
contact@eockl el egal briefs.com
Web Site
www.cocklelegalbriefs.com

No. 20-1641
MARIETTA MEMORIAL HOSPITAL EMPLOYEE
HEALTH BENEFIT PLAN, MARIETTA
MEMORIAL HOSPITAL, AND MEDICAL
BENEFITS MUTUAL LIFE INSURANCE CO.,
Petitioners,
v.
DAVITA INC., AND DVA RENAL HEALTHCARE, INC.,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the JOINT REPLY BRIEF FOR
PETITIONERS in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 2681 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 4th day of October, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENENAf. DIARY-State of Nebraska
RENEE J. DOSS
My Comm. Exp. September 5, 2023
Notary Public

?

Affiant

41337

